No. 20-794
In the

Supreme Court of the United States
SERVOTRONICS, INC.,
Petitioner,
v.
ROLLS-ROYCE PLC AND THE BOEING COMPANY,
Respondents.

On Writ of Certiorari to the United States
Court of A ppeals for the Seventh Circuit

REPLY BRIEF
Stephen R. Stegich
Counsel of Record
K atherine B. Posner
David P. Yates
Wendy A. Grossman
Condon & Forsyth
Times Square Tower
Seven Times Square
New York, New York 10036
(212) 490-9100
sstegich@condonlaw.com
Counsel for Petitioner
305586

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

This Case Has Not Been Rendered Moot by
Conclusion of the Hearing in the Arbitration
Between Rolls-Royce and Servotronics  . . . . . . . 2

II. Nothing in the Text of Section 1782
Evidences Congressional Intent to Exclude
Commercial Arbitral Tribunals  . . . . . . . . . . . . . 6
A. T h e O n l y L o g i c a l , Wo r k a b l e
Interpretation of the Term “Foreign
or International Tribunals” in Section
178 2 i s O ne t h at Encompa s se s
Commercial Arbitral Tribunals  . . . . . . . . . 6
B. If Congress Meant to Limit Application
of Section 1782 to Sovereign-Created
Bodies, Such Exclusion Would Have Been
Expressed in the Statutory Text . . . . . . . . 14
C. Interpreting Section 1782 as Written
Does Not Result in Inconsistency Within
that Statute or Any Related Statute . . . . . 16

ii
Table of Contents
Page
III. W hether a Foreign or International
Tribunal Includes Arbitral Tribunals
Was Not Before the Court in Intel and
Thus Was Not Addressed By the Court . . . . . .  17
IV. The Fact that Arbitral Tribunals are
Encompassed by the Term “Foreign
or International Tribunal” in Section
17 8 2 D o e s Not C r e at e a C on f l i c t
with the Federal Arbitration Act . . . . . . . . . . . . 19
V.

Respondents’ Purported Concerns About
Applying Section 1782 to Commercial
Arbitral Tribunals are Objections to the
Scope of Discovery in the United States  . . . . . 20

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Already, LLC v. Nike, Inc.,
568 U.S. 85 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Application of the Fund for Protection of
Investor Rights in Foreign States v.
AlixPartners, LLP,
Docket No. 20-2653 cv, 2021 WL 2963980
(2d Cir. July 15, 2021) . . . . . . . . . . . . . . . . .  9, 10, 11, 13
Azar v. Allina Health Serv.,
__ U.S. __, 139 S. Ct. 1804 (2019) . . . . . . . . . . . . . . . 18
Bostock v. Clayton Cnty., Georgia,
__ U.S. __, 140 S. Ct. 1731 (2020) . . . . . . . . . . . . . . . 13
Decker v. Nw. Env’t Defense Ctr.,
568 U.S. 597 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Ellis v. Ry. Clerks,
466 U.S. 435 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. Commc’ns Comm’n v. Pacifica Found.,
438 U.S. 726 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Gannett Co. v. DePasquale,
443 U.S. 368 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Honig v. Doe,
484 U.S. 305 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

iv
Cited Authorities
Page
In re Application to Obtain Discovery for Use
in Foreign Proceedings (Abdul Latif Jameel
Transp. Co. v. FedEx Corp.),
939 F.3d 710 (6th Cir. 2019)  . . . . . . . . . . . . . . . . . 16, 20
In re Guo,
965 F.3d 96 (2d Cir. 2020) . . . . . . . . . . . . . . . . . . . . 9, 11
In re Letters Rogatory Issued by the Dir. of
Inspection of the Gov’t of India,
385 F.2d 1017 (2d Cir. 1967) . . . . . . . . . . . . . . . . . . . . . 7
Intel Corp. v. Advanced Micro Devices,
542 U.S. 241 (2004) . . . . . . . . . . . . . . . . . . . . . . . passim
Knox v. Serv. Emp. Int’l Union,
567 U.S. 298 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Los Angeles v. Davis,
440 U.S. 625 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Maxwell v. Moore,
63 U.S. (1 Wall) 185 (1859) . . . . . . . . . . . . . . . . . . . . . 13
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc.,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Roe v. Wade,
410 U.S. 113 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

v
Cited Authorities
Page
Servotronics, Inc. v. Boeing Co.,
954 F.3d 209 (4th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 20
United States v. Sanchez-Gomez,
__ US,__, 138 S. Ct. 1532 (2018) . . . . . . . . . . . . . . . . . 3
United States v. W.T. Grant Co.,
345 U.S. 629 (1953) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Weinstein v. Bradford,
423 U.S. 147 (1975)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Statutes and Other Authorities
5 U.S.C. § 552b(c)(10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Federal Arbitration Act, 9 U.S.C. §§ 1 et seq. . . . . passim
28 U.S.C. § 1696  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
28 U.S.C. § 1781  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
28 U.S.C. § 1782  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Act of July 3, 1930, ch. 851, § 1, 46 Stat. 1005-06 . . . . . 15
English 1996 Arbitration Act . . . . . . . . . . . . . . . . . . . . . . 3
Fed. R. Civ. P. 45(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

vi
Cited Authorities
Page
Webster’s New International Dictionary of the
English Language (2d ed. 1959) . . . . . . . . . . . . . . . . . 7

1
SUMMARY OF ARGUMENT
Unable to construct a solid basis on which to refute
that “foreign or international tribunal” is understood
to encompass commercial arbitral tribunals and was so
understood in 1964 when the current version of Section 1782
was enacted, Respondents resort to sounding false alarms
over what they portray as dire consequences that would
result from applying the statutory language as written.
This “parade of horribles” includes the purported danger
that such a definition would render the term “hopelessly
vague,” requiring courts to engage in “endless linedrawing” and sort through all manner of disagreements
as well as “opening the floodgates” to unfettered discovery
that would allegedly bog down the parties to foreign and
international commercial arbitrations and deprive them of
the benefits that make arbitration an attractive alternative
to litigation. None of these predictions has any basis in
fact. Nor do Respondents’ arguments that applying the
long-used and widely understood meaning of the term
“foreign or international tribunal” to interpretation of
Section 1782 creates a conflict within the statute, with
related statutes, or with the Federal Arbitration Act.
The only line-drawing problem at issue in this case is
the one created by the artificial public/private distinction
drawn by the exclusions the Seventh and Second Circuits
grafted onto the language of Section 1782. As a recent
case from the Second Circuit illustrates, this exercise in
judicial legislation in the guise of statutory interpretation
defies logic and reason when courts undertake the task of
practical application to Section 1782 requests. In essence,
Respondents’ purported concerns that allowing the
district courts to introduce “American style discovery”

2
will make commercial arbitration before foreign and
international tribunals less attractive is a criticism of
the federal discovery rules and the manner in which
they are implemented, not a viable basis for applying an
overly narrow and clearly unworkable interpretation to
the language of Section 1782.
Accordingly, Section 1782 should be applied to foreign
and international commercial arbitral tribunals.
ARGUMENT
I.

This Case Has Not Been Rendered Moot by
Conclusion of the Hearing in the Arbitration
Between Rolls-Royce and Servotronics

A case becomes moot only when it is impossible for
a court to grant any effectual relief whatever to the
prevailing party. Decker v. Nw. Env’t Defense Ctr., 568
U.S. 597 (2013). As long as the parties have a concrete
interest, however small, in the outcome of the litigation,
the case is not moot. Knox v. Serv. Emp. Int’l Union, 567
U.S. 298, 307-8 (2012) (quoting Ellis v. Ry. Clerks, 466
U.S. 435, 442 (1984)). Thus, Boeing’s argument that this
case is “almost certainly moot” (Boeing Br. at 12-13) is
insufficient to support dismissal, as is the assertion by
Rolls-Royce that this case appears to be moot and the
prediction of impending mootness (Rolls-Royce Br. at 12).
The burden of demonstrating mootness is a heavy one
(Los Angeles v. Davis, 440 U.S. 625, 631 (1979); United
States v. W.T. Grant Co., 345 U.S. 629, 633 (1953)), which
cannot be met at this juncture. The arbitral tribunal has
not yet issued its final award, leaving open the possibility
that documentary evidence obtained via subpoena served

3
on Boeing could be submitted for consideration prior to
conclusion of the arbitration proceedings. Furthermore,
if the arbitral tribunal issues an award before the Court
renders a decision in this case, recourse to challenge the
award in an English Court exists under the English 1996
Arbitration Act (“EAA”). See Section 68, EAA 1996.
In any event, this case is one that would not be moot
even after any award issued by the arbitral tribunal
becomes final because the issue under review is one that
is capable of repetition yet evading review. See Honig v.
Doe, 484 U.S. 305 (1988); Roe v. Wade, 410 U.S. 113, 12325 (1973).1 The issue of whether 28 U.S.C. § 1782 grants a
District Court discretion to order third-party discovery in
aid of a foreign commercial arbitration satisfies the twopronged exception to mootness for controversies that are
capable of repetition yet evading review: (1) the arbitration
proceedings were too short in duration to allow for full
litigation of the issue; and (2) there exists a reasonable
expectation that Servotronics—the same complaining
party—would be subject to the same action again. See
United States v. Sanchez-Gomez, __ US,__, 138 S. Ct.
1532, 1540 (2018); Honig, 484 U.S. at 318-19; Gannett Co.
v. DePasquale, 443 U.S. 368 (1979); Weinstein v. Bradford,
423 U.S. 147, 148-49 (1975).
1. The majority opinion in Honig made clear that the “capable
of repetition” test is met if there exists a reasonable expectation
that the complaining party would encounter a recurrence of the
controversy raised in the court proceeding, stating: “Our concern
in these cases, as in all others involving potentially moot claims,
was whether the controversy was capable of repetition and not
… whether the claimant has demonstrated that a recurrence
of the dispute was more probable than not.” 484 U.S. at 319 n.6
(emphasis in original).

4
Boeing’s argument (at 15 n.1) that this case fails
the first prong of the test because Servotronics had
“ample time for full appellate review” and suggestion
that Servotronics “could have requested expedited
consideration at any stage of the proceedings” ignores the
fact that both Rolls-Royce and Boeing would have opposed
such a request. Respondents have vigorously opposed
Servotronics’ efforts to subpoena documents from Boeing
and went to great lengths to delay issuance of deposition
subpoenas on Boeing in a related case in the District of
South Carolina. 2 Notably, when the district court finally
issued the deposition subpoenas in compliance with a writ
of mandamus from the Fourth Circuit (Order 1-2, Case
No. 21-1305, ECF No. 22 (4th Cir. Apr. 15, 2021)), RollsRoyce filed an emergency application requesting that
this Court issue a stay in that case to prevent service of
the subpoenas. See No. 20A160. In addition, it vigorously
opposed Servotronics’ requests to adjourn the arbitration
hearing until this litigation is concluded in an effort to
create a basis on which to argue mootness in this Court.
Rolls-Royce even requested that the arbitral tribunal
somehow enjoin Servotronics from pursuing review of the
Seventh Circuit judgment in this Court. Id., Rolls-Royce
Appendix at 39a-40a. 3
2. Boeing also made a successful motion to extend the time
to respond to the Petition for Certiorari in this Court, presumably
to ensure this case could not be heard during the October 2020
Term, and Rolls-Royce obtained an extension of time to file its
brief on the merits.
3. Respondents’ argument that this case does not fall within
the exception for issues that are capable of repetition yet evading
review relies on language from Already, LLC v. Nike, Inc., 568
U.S. 85 (2013), a case involving the voluntary cessation doctrine.
Such cases pose the question: “Could the allegedly wrongful

5
With regard to the second prong of the test, Boeing is
mistaken in its contention (at 14) that Servotronics “cannot
plausibly assert it is likely to be involved in another Section
1782 dispute involving foreign arbitrations, let alone with
either Boeing or Rolls-Royce.” Servotronics is a party to a
Long-Term Agreement with Rolls-Royce which requires
arbitration of unresolved disputes in England. Shah
Declaration ¶ 4, JA 20a. This fact alone is sufficient to
raise the reasonable expectation that Servotronics would
have a need to seek evidence in the United States in aid of
foreign arbitration4 with Rolls-Royce in the future. In the
event an award of the arbitral panel becomes final before
this Court issues its opinion in this case and Respondents
file a motion to dismiss or a suggestion of mootness
under the procedures prescribed in Supreme Court
Rule 21, Servotronics will file a response accompanied
by an affidavit from an officer of Servotronics providing
additional information establishing that there is, indeed,
a reasonable expectation that Servotronics would again
be subject to the same denial of evidence needed for a
foreign arbitration in the future.
behavior reasonably be expected to recur?” The Court stated,
“Nike cannot avoid its formidable burden by assuming the answer
to that question.” 568 U.S. at 92. In sharp contrast to the cases to
which the voluntary cessation doctrine might apply, Respondents
have spared no effort to prevent Servotronics from obtaining
discovery from Boeing in both this and a related case and have
given every indication that each of them would not hesitate to do
so again in the future.
4. Although the parties to the arbitration at issue in the
present case have different nationalities, the arbitral tribunal is
a foreign one, because it is seated outside the United States and
operates within the framework of a single foreign jurisdiction.
See Wang Br. at 2 n.2.

6
Despite the best efforts of both Respondents, this
case is not moot at this time. In the event subsequent
developments require the Court’s consideration of
mootness, Servotronics will demonstrate that this case
falls within the exception for wrongs that are capable of
repetition yet evading review.
II. Nothing in the Text of Section 1782 Evidences
Congressional Intent to Exclude Commercial
Arbitral Tribunals
A.

The Only Logical, Workable Interpretation of
the Term “Foreign or International Tribunals”
in Section 1782 is One that Encompasses
Commercial Arbitral Tribunals

In the course of its textual analysis, the Seventh
Circuit acknowledged that some dictionaries in use in
1964 defined “tribunal” to include arbitral tribunals
while others did not, and for that reason concluded that
“dictionary definitions do not unambiguously resolve” the
issue. “All definitions agree that the word ‘tribunal’ means
‘a court,’ but some are more expansive, leaving room
for both competing interpretations.” JA 86a. However,
Respondents attempt to create the false impression that
contemporaneous dictionaries leave no room for doubt
that the term “foreign or international tribunal” must
have meant “a court or other governmental adjudicator”
in 1964. Rolls-Royce Br. at 14-17; Boeing Br. at 18-19. An
examination of contemporaneous dictionaries and judicial
usage confirms that the term has long been understood
to be much broader.

7
Notably, Rolls-Royce (at 16) quotes a dictionary
definition of “tribunal” that includes “a person or body
of persons having authority to hear and decide disputes
so as to bind the disputants” (quoting Webster’s New
International Dictionary of the English Language (2d
ed. 1959), which is identical to the definition from the
1961 edition of the same dictionary quoted in Petitioner’s
Opening Brief at 11. This is typical of definitions appearing
in numerous dictionaries in general use since before
1964, including dictionaries Justice Scalia identified as
particularly authoritative and useful for determining
near-contemporaneous common meaning of words in the
period 1951-2000. See FedArb Br. at 10-11. A commercial
arbitral tribunal is unquestionably a body of persons
with authority to hear and decide disputes so as to bind
the disputants. Furthermore, the fact that Respondents
have found instances in which the Court has used words
other than “tribunal” to refer to a body conducting an
arbitration does not detract from the fact that “tribunal”
has long been in general use by the Court and lower courts
to refer to an arbitral body. 5

5. Contrary to the assertion of Rolls-Royce (at 29), In re
Letters Rogatory Issued by the Dir. of Inspection of the Gov’t of
India, 385 F.2d 1017 (2d Cir. 1967), did not hold that Section 1782
is limited to governmental adjudicators. Instead, the court held
that the foreign income tax officer was not a “tribunal” and thus
could not utilize a Section 1782 request. In its analysis, the court
used an example of a type of governmental adjudicator in France
to contrast with the Indian government’s tax officer. The court
also observed that a tax audit does not fit the notion that most
American legislators have of what constitutes a tribunal. 385 F.2d
at 1021. By this standard, an arbitration does constitute a tribunal.

8
Respondents’ efforts to tie the words “foreign” and
“international” inextricably to institutions created by
sovereigns fail on both a linguistic and analytical level.
The dictionary definitions Respondents have cited
reveal meanings of these words in use in 1964 that are
no different from their common usage today. One need
not consult a dictionary to know that “foreign” refers to
persons, objects and institutions that are situated in or
originated from another country, and do not necessarily
have anything to do with the government or sovereignty
of that country. Nor is the word “international” tied to
sovereignty. The term international travel is but one of
many examples in common use long before and after 1964.
A more fundamental problem with Respondents’
argument and the corresponding rationale of the Second
and Seventh Circuits is that it is impossible to draw a
bright-line distinction between tribunals that are “statesponsored, public, or quasi-governmental” and those that
are “private.” This is due to the fact that arbitral tribunals
derive their authority to make decisions that are binding
on the parties from the laws enacted by the country in
which they sit. The agreements by which parties commit to
submitting a matter to arbitration rather than a court are
enforceable within the borders of the country in which the
arbitration is conducted only if that country has enacted
laws that recognize the validity of such agreements and
empower the courts to enforce them. An array of treaties
between and among various countries have created
commitments to recognize and enforce foreign arbitration
agreements and awards. The most prevalent of these
treaties is the 1958 Convention on the Recognition and
Enforcement of Foreign Arbitral Awards (“New York
Convention”), to which 168 countries adhere. See FedArb

9
Br. at 16-21; Wang Br. at 22-25; IACT Br. at 3-4 and 8-12.
Thus, the public-private dichotomy adopted by the Second
and Seventh Circuits and advocated by Respondents is an
artificial construct that leads to illogical and inconsistent
classifications in practice.
A prime example of the inconsistencies inherent in
attempting to distinguish between “state-sponsored” and
“private” tribunals is the recent decision by the Second
Circuit in Application of the Fund for Protection of
Investor Rights in Foreign States v. AlixPartners, LLP,
Docket No. 20-2653 cv, 2021 WL 2963980 (2d Cir. July
15, 2021) (“Fund Application”). The Fund, a Russian
corporation which is the assignee of a Russian national
seeking compensation for expropriation of his shares in a
failed bank in Lithuania, obtained a subpoena for discovery
to be used in an arbitration against Lithuania. The arbitral
tribunal was established pursuant to an investment
treaty between Lithuania and Russia. Under Second
Circuit precedent, so-called private arbitral bodies do not
constitute foreign or international tribunals within the
meaning of Section 1782. In order to determine whether
the district court was justified in issuing a subpoena in
aid of the arbitration, the Second Circuit utilized the set
of four functional factors it had announced in In re Guo,
965 F.3d 96 (2d Cir. 2020).
The first Guo factor is the extent to which the arbitral
body is internally directed and governed by a foreign
state or international body. The court found that the
Fund Application arbitral panel functioned independently
from the governments of both Lithuania and Russia. Its
members—two lawyers and a law professor—have no
official affiliation with any government, governmental

10
entity or intergovernmental entity and the panel receives
no government funding. In addition, the proceedings are
confidential and the award may be made public only with
the consent of both parties. Nevertheless, the Second
Circuit concluded that the first factor weighed in favor
of finding that the arbitral body is “public” because it
was convened pursuant to a treaty and thereby “retains
affiliation” with Russia and Lithuania. Another reason the
court cited for its affiliation factor determination is that
the rules adopted to govern the proceeding were developed
by the United Nations Commission on International Trade
Law (UNCITRAL), an international body. However, the
treaty provided the parties with a choice of four sets of
rules, which include those of the Arbitration Institute of
the Stockholm Chamber of Commerce and the Court of
Arbitration of the International Chamber of Commerce
(“ICC”). Fund Application, 2021 WL 2963980 at *6, 2.
These options, along with the UNCITRAL rules, are
available to businesses arbitrating outside the context of
any treaty.
The second factor, state authority to intervene or
alter the outcome, was deemed to be neutral, even though
such authority was “limited, if not non-existent.” Id. at
*7. Because the arbitral panel derived its adjudicatory
authority from the treaty, the court found that the third
factor—nature of jurisdiction possessed by the panel—
weighed heavily in favor of qualifying as a foreign or
international tribunal. Id.
The fourth factor examines the process by which the
arbitrators were selected. The treaty specifies that each
party selects one arbitrator and those two arbitrators
select a third. As noted above, all of the selected
arbitrators are individuals with no governmental or inter-

11
governmental affiliation. The court acknowledged that this
process is suggestive of a private arbitration, but stated
this factor was not determinative. Id.
The court also examined additional factors and
determined that the arbitral body is a foreign or
international tribunal within the meaning of Section 1782,
but only because the court deemed it to be “public.” Id.
at *8.
The reasoning in Fund Application is fraught with
inconsistency. The arbitral body in that case has virtually
all the attributes of a body presiding over any foreign
commercial arbitration. The only real difference between
the Fund Application arbitration and an arbitration that
the Second and Seventh Circuits classify as “private” is
that it was convened pursuant to a bilateral treaty rather
than a contract between the parties. The Second Circuit
appears to have deemed this fact (the third of the Guo
factors) to be dispositive. However, the arbitral tribunal
was charged with resolving a commercial dispute and
the need for discovery assistance from the district court
pursuant to Section 1782 is no greater than or qualitatively
different from the needs of any arbitral tribunal seated
outside the United States and charged with resolving
a commercial dispute between or among parties from
different countries.6
6. To the extent the result in Fund Application may have
been influenced by comity considerations, the case serves as a
reminder that “concerns of international comity, respect for the
capacities of foreign and transnational tribunals, and sensitivity to
the needs of the international commercial system for predictability
in the resolution of disputes” apply to foreign and international
commercial arbitrations. See Mitsubishi Motors Corp. v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614, 629 (1985).

12
Unlike the judicially-imposed exclusion for “private”
arbitrations, the common meaning of “foreign or
international tribunal” as used in Section 1782, which
encompasses commercial arbitrations such as the one at
issue in this case, does not render the term “hopelessly
vague,” as Rolls-Royce (at 18) contends. Nor is there any
danger that resolution of this case in favor of Servotronics
would “spawn endless line-drawing problems” (id.), as
does the artificial public-private dichotomy adopted by
the Second and Seventh Circuits. Instead, the case before
this Court is one in which two corporate parties to a longterm contract (one British, the other American) agreed
to present disputes relating to their commercial dealings
with one another in arbitration conducted in England (a
foreign country). Courts in the United States have no
difficulty understanding this construct when presented
with an array of issues such as whether a matter is
arbitrable, whether litigation should be stayed pending
arbitration or dismissed altogether in deference to the
agreement to arbitrate, and whether discovery should be
granted in aid of such arbitration.
The balance of Rolls-Royce’s vagueness argument is
equally meritless. Rolls-Royce suggests (at 19-20) that
courts would need to make a qualitative assessment of
whether a particular foreign government favors arbitration
or particular types of arbitration before deciding whether
to grant a request for discovery under Section 1782
and asks what the effect would be if a pro-arbitration
government loses power in a country and is replaced by
one that opposes it. Not only are these assertions and
questions purely hypothetical,7 but their purpose is to
7. The premises on which these arguments rest are highly
speculative and contradictory. For example, Rolls-Royce attempts

13
persuade the Court that limiting the application of Section
1782 to tribunals formed by either an individual foreign
country or a group of countries is somehow preferable to
having the statute apply to commercial arbitral tribunals.
By so doing, Rolls-Royce begs the question presented
in Fund Application, in which the tribunal was not
formed by any government but was convened by parties
to a commercial dispute in the manner permitted by a
bilateral treaty; it is urging this Court to legislate, rather
than perform its judicial function of interpreting existing
legislation. See Maxwell v. Moore, 63 U.S. (1 Wall) 185, 191
(1859). As the Court stated in Bostock v. Clayton Cnty.,
Georgia, __ U.S. __, 140 S. Ct. 1731 (2020):
only the words on the page constitute the law
adopted by Congress and approved by the
President. If judges could add to, remodel,
update, or detract from old statutory terms
inspired only by extratextual sources and our
own imaginations, we would risk amending
statutes outside the legislative process reserved
for the people’s representatives.
140 S. Ct. at 1738.

to contrast the transitory nature of private arbitral tribunals with
the established nature of courts created by a single sovereign
and international tribunals, ignoring the fact that international
tribunals can be convened for a specific purpose, such as to try war
crimes, and sovereigns have the ability to do the same within their
own countries. Furthermore, the questions Rolls-Royce poses (at
19) about what happens if a change in the country government
results in a change from a pro-arbitration policy to one that is
hostile to arbitration undermines the premise that tribunals
created by sovereigns necessarily have permanence.

14
B. If Congress Meant to Limit Application of
Section 1782 to Sovereign-Created Bodies,
Such Exclusion Would Have Been Expressed
in the Statutory Text
Rolls-Royce (at 20-25) presents an extensive catalog
of statutes and treaties that use the word “tribunal” to
refer to courts “or their equivalents” when addressing
issues concerning such entities and other words to refer
to bodies that conduct arbitrations when the exclusive
subject is arbitration. This information sheds no light
on how a statute that has been amended to expand its
reach by replacing the word “courts” with “foreign or
international tribunals” should be interpreted. Moreover,
Respondents fail to explain how interpreting the term
“foreign or international tribunal” to only mean “courts or
their equivalents” does not fly in the face of the expressed
Congressional intent in 1964 to significantly expand the
scope of Section 1782.
In addition, at least two of the cited examples
contradict the distinctions Respondents are attempting
to draw. First, Rolls-Royce references (at 23) use of the
words “arbitrators” or “umpires” in the 1947 amendment
to the Federal Arbitration Act (“FAA”) and the absence of
the word “tribunal.” If this observation is meant to support
the conclusion that arbitral bodies are never tribunals,
it contradicts Respondents’ position that governmentconvened arbitrations are, in fact, tribunals for purposes
of Section 1782. Second, Rolls-Royce states (at 24): “The
1976 Freedom of Information Act even distinguishes
between actions ‘in a foreign court or international
tribunal, or an arbitration.’ 5 U.S.C. § 552b(c)(10). If
‘international tribunals’ included private arbitration, that

15
distinction would be unnecessary.” By the same logic,
this provision draws a distinction between a court and a
tribunal, which clearly was not the intention of Congress
in amending Section 1782.
A lso contrary to Respondents’ position is the
observation that international commercial arbitration
was well-established by 1964 and that Congress was
well aware of such proceedings (Rolls-Royce Br. at 25).
Congressional awareness of international commercial
arbitration, combined with the common usage of the word
“tribunal” to refer to bodies that conduct arbitrations as
well as courts created by a sovereign and other adjudicative
bodies created by treaties, supports the conclusion that
if Congress had intended to exclude arbitral tribunals
from the scope of Section 1782 such intention would have
been expressed in exclusionary language in the statute
or by including a definition in the statutory text giving
the term “foreign or international tribunal” such narrow,
specialized meaning. 8

8. As Rolls-Royce points out (at 22-23), Congress used
language to limit international tribunals to ones created by
governments in a 1930 provision granting certain authority to
members of an “international tribunal or commission, established
pursuant to an agreement between the United States and any
foreign government or governments ….” Act of July 3, 1930, ch.
851, § 1, 46 Stat. 1005-06. This history further demonstrates that
if Congress intended to limit “foreign or international tribunal” to
governmental or quasi-governmental tribunals in 1964, it easily
could have expressed such intent.

16
C.

Interpreting Section 1782 as Written Does Not
Result in Inconsistency Within that Statute or
Any Related Statute

Section 1782 empowers the district court to issue
an order that prescribes the practice and procedure
for taking the testimony or statement of a witness or
producing a document or thing. As Rolls-Royce accurately
states, the Federal Rules of Civil Procedure is the default
in these circumstances and the district court has the
option of prescribing a practice or procedure that is “in
whole or in part the practice and procedure of the foreign
country or the international tribunal” for carrying out the
discovery it orders. 28 U.S.C. § 1782(a). The fact that some
tribunals may not have their own practices or procedures
and look to those of the country in which they sit or rules
promulgated by an international arbitration organization
such as the Chartered Institute of Arbitrators, the ICC
or FedArb does not create an inconsistency within the
statute or require a narrow definition of the term “foreign
or international tribunal.” See In re Application to Obtain
Discovery for Use in Foreign Proceedings (Abdul Latif
Jameel Transp. Co. v. FedEx Corp.), 939 F.3d 710, 723 (6th
Cir. 2019) (“FedEx”) (permissive wording of the sentence
in Section 1782 indicates it is an optional borrowing
provision, not a requirement that such procedures exist
or that foreign tribunal must be a governmental entity).
Nor does the fact that the term is used in 28 U.S.C.
§ 1781, which deals specifically with letters rogatory
and requests, or in 28 U.S.C. § 1696, which involves
service of documents, create an inconsistency requiring
a narrow, sovereign-based interpretation. Foreign and
international commercial arbitral tribunals can make

17
requests for assistance with service of a document or to
obtain evidence. Id.; Bermann Br. at 18-20. See also Intel
Corp. v. Advanced Micro Devices, 542 U.S. 241, 257 n.10
(2004) (“Intel”).
Thus, interpreting the term “foreign or international
tribunal” to include commercial arbitral tribunals
does not create any inconsistency, either within the
statute or with related statutes. The term is broad and
thus necessarily applies to a range of bodies that have
certain characteristics in common, chief among which is
performance of adjudicatory functions. It is to be expected
that, within this broad category individual bodies will have
differing rules, differing levels of authority, and some may
be empowered to perform certain ancillary functions while
others are not. These variations do not, however, alter the
fact that such bodies are tribunals.
III. Whether a Foreign or International Tribunal
Includes Arbitral Tribunals Was Not Before the
Court in Intel and Thus Was Not Addressed By the
Court
Respondents take divergent approaches to invoking
Intel in their briefs. Boeing misstates what was said in
Petitioner’s Opening Brief in order to challenge that
perceived position, whereas Rolls-Royce argues (at 38)
that the Intel opinion “treats a ‘tribunal’ as a governmental
adjudicatory body, not a private arbitral panel,” an issue
that was never addressed in Intel. Rolls-Royce utilizes a
quote from Intel and an embedded quote of the Senate
Committee Report which states that the purpose of
introducing the word “tribunal” was to ensure that
discovery assistance rendered by the district courts would

18
not be confined to proceedings before conventional courts,
but would be extended to also include “administrative and
quasi-judicial proceedings.” In the next sentence, RollsRoyce makes an assertion (at 39) that changes the word
“proceedings” to “agencies,” a word that does not appear
in the preceding quote, but is included within the quotation
marks in the brief: “Private arbitral panels are not
‘administrative’ bodies or ‘quasi-judicial agencies.’” This
telling change was necessary to construct Respondents’
flawed argument that Intel supports the illusory public/
private dichotomy introduced by the judicially-made
exception to Section 1782.
Prior to this case, Intel was the only occasion the
Court had to examine the meaning of the term “foreign
or international tribunal” in Section 1782, and it did so
in the context of a proceeding other than a commercial
arbitration. As noted in Petitioner’s Opening Brief and
Petition for Certiorari, the Court’s analysis of the statutory
language and its legislative history is instructive, but did
not (and could not) provide a definitive answer to the
question currently under review. 9

9. In this regard, Intel followed the “well-worn path of
declining to issue a sweeping ruling when a narrow one will do.”
Azar v. Allina Health Serv., __ U.S. __, 139 S. Ct. 1804, 1814
(2019) (internal quotation marks omitted). See Fed. Commc’ns
Comm’n v. Pacifica Found., 438 U.S. 726, 734-35 (1978) (“However
appropriate it may be for an administrative agency to write
broadly in an adjudicatory proceeding, federal courts have never
been empowered to issue advisory opinions.”).

19
IV. The Fact that Arbitral Tribunals are Encompassed
by the Term “Foreign or International Tribunal”
in Section 1782 Does Not Create a Conflict with the
Federal Arbitration Act
Among the false alarms raised in Respondents’ briefs
is the prediction that the courts will be mired in confusion
over how to resolve a perceived conflict between Section
1782 and the FAA. However, there is no conflict and the
district courts have a clear path for avoiding whatever
confusion litigants may attempt to create on the subject.
The FAA governs all arbitrations seated in the United
States, regardless of the nationalities of the parties and
the arbitrators. 9 U.S.C. § 2. There is no opportunity for
confusion about whether Section 1782 might also apply to
such arbitral tribunals because “Section 1782 is a provision
for assistance to tribunals abroad.” Intel, 542 U.S. at 263.
It has no application to tribunals seated within the United
States.
Section 7 of the FAA grants broad powers to arbitral
tribunals seated in the United States to summon witnesses
to give testimony or produce documents or other things
at an evidentiary hearing and provides recourse to
the district court for the judicial district in which the
arbitration is seated if a witness refuses to comply with
a summons issued by the arbitrators. 9 U.S.C. § 7. Such
powers necessarily are limited by the same geographic
restrictions that apply to the district court’s power to
compel appearances of witnesses for any purpose. Id.;
Fed. R. Civ. P. 45(c). Because the FAA only applies
to arbitrations seated in the United States, Section 7
cannot address the needs of arbitrations seated abroad.

20
Jurisdictional limits preclude arbitral tribunals seated
abroad from compelling the attendance of witnesses or
production of documents for their evidentiary hearings
and no district court is empowered to compel attendance
or production more than 100 miles outside its judicial
district. Thus, Section 1782 is the sole means by which
parties to arbitrations seated outside the United States
may compel testimony by or production of documents or
things from persons or entities within the United States
for use in such proceedings.
Whether the benefits conferred by Section 7 of the
FAA to arbitral tribunals seated in the United States are
more or less beneficial than those conferred to parties to
proceedings in tribunals seated abroad by Section 1782 is
a question that is purely academic. As the Court stated,
Section 1782 “does not direct United States courts to
engage in comparative analysis to determine whether
analogous proceedings exist here.” Intel, 542 U.S. at 263.
See also Servotronics, Inc. v. Boeing Co., 954 F.3d 209,
216 (4th Cir. 2020); FedEx, 939 F.3d at 728-29.
V. Respondents’ Purported Concerns About Applying
Section 1782 to Commercial Arbitral Tribunals are
Objections to the Scope of Discovery in the United
States
Respondents raise alarms about a “vast new frontier
of abusive discovery requests,” “opening the floodgates,”
“swamp[ing] the federal courts with applications for
discovery,” a “deluge that would strain district courts
and subject U.S. companies and residents to fishing
expeditions” and the danger of “transform[ing] U.S.
courts into beacons for harassment.” Rolls-Royce Br. at

21
46-47; Boeing Br. at 39. However, Respondents’ arguments
reveal the true nature of their concerns: applying Section
1782 to arbitrations “would obliterate many advantages of
arbitration” because “American discovery is world-famous
for offering expensive, no-stone-unturned evidentiary
production that few other forums provide.” Rolls-Royce
Br. at 48.
While much is made in Respondents’ briefs about
delays encountered when discovery is sought pursuant to
Section 1782 applications, there is no acknowledgement
that in the proceedings below this was exactly the problem
of their own making. Virtually all of the time taken up by
Section 1782 proceedings is devoted to efforts to resist the
requested discovery and challenges to adverse rulings.
The policy question of whether the extent of discovery
permitted under the Federal Rules of Civil Procedure is
in need of reform that Respondents raise in their briefs
is wholly unrelated to the issue before this Court in the
present case. The only issue in this case is one of statutory
interpretation. As such, resolution of this case requires
a determination of the intent of Congress, as revealed by
the language of the statute and, possibly, its legislative
history.10
10. To the extent the Court deems it advisable for district
courts to apply a uniform set of considerations to requests for
assistance pursuant to Section 1782 in order to minimize burden
and ensure that the foreign or international tribunal has an
opportunity to weigh in on the scope of discovery contemplated by
such requests, it is respectfully submitted that the Court might
consider augmenting the directions given to district courts that
were formulated in Intel, which have become known as the Intel
factors. See Wang Br. at 13-22; ICC Br. at 6-9.

22
CONCLUSION
Given the absence of any express intention to exclude
commercial arbitrations from “foreign or international
tribunals” and the general understanding of those words
at the time of passage, the artificial and ultimately
unworkable exclusion imposed by the Seventh Circuit
below should be rejected and Section 1782 should be
enforced as written. Accordingly, Petitioner Servotronics,
Inc. respectfully requests that the Court reverse the
judgment of the Seventh Circuit and direct the district
court to reinstate (1) its November 19, 2018 Minute Order
granting Servotronics’ ex parte application and (2) the
subpoena issued on November 20, 2018 (JA 8a).
Respectfully submitted,
Stephen R. Stegich
Counsel of Record
K atherine B. Posner
David P. Yates
Wendy A. Grossman
Condon & Forsyth
Times Square Tower
Seven Times Square
New York, New York 10036
(212) 490-9100
sstegich@condonlaw.com
Counsel for Petitioner

